No. ________

In The

Supreme Court of the United States
_______

JOSHUA E. FRANKEL,
Petitioner,

v.

UNITED STATES OF AMERICA, ET AL.,
Respondents.

_______
On Petition for Writ of Certiorari
to the United States Court of Appeals
for the Fourth Circuit

_______

APPENDIX
_______
Allen W. Beasley
Counsel of Record
Michael F. Imprevento
Breit Cantor Grana Buckner, PLLC
600 22nd Street, Suite 402
Virginia Beach, Virginia 23451
(757) 622-6000
abeasley@breitcantor.com
mimprevento@breitcantor.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond VA 23219 (800) 847-0477

TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Fourth Circuit, dated April 4, 2020 .................. A1
Opinion of the United States District Court for the
Eastern District of Virginia, Norfolk Division,
dated January 7, 2019 ........................................... A18

A1
UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1113
JOSHUA E. FRANKEL,
Plaintiff – Appellant,
v.
UNITED STATES OF AMERICA; JAVEN EVONNE
DAVIS, solely in her capacity of an uninsured driver
pursuant to Virginia Code § 38.2-2206, as amended
and provided,
Defendants – Appellees,
and
GOVERNMENT EMPLOYEES INSURANCE
COMPANY,
Intervenor.
Appeal from the United States District Court for the
Eastern District of Virginia, at Norfolk. Mark S.
Davis, Chief District Judge. (2:18-cv-00107-MSD)
Submitted: March 16, 2020

Decided: April 14, 2020

Before NIEMEYER, MOTZ, and AGEE, Circuit
Judges.
Affirmed by unpublished per curiam opinion.
Michael Francis Imprevento, BREIT DRESCHER
IMPREVENTO, PC, Virginia Beach, Virginia, for
Appellant. G. Zachary Terwilliger, United States
Attorney, Lauren A. Wetzler, Chief, Civil Division,

A2
Alexandria, Virginia, Sean D. Jansen, Assistant
United States Attorney, OFFICE OF THE UNITED
STATES ATTORNEY, Norfolk, Virginia; Richard A.
Saunders, FURNISS, DAVIS, RASHKIND &
SAUNDERS, Norfolk, Virginia, for Appellees
Unpublished opinions are not binding precedent in
this circuit.
PER CURIAM:
After Petty Officer Joshua Frankel, a U.S. Navy
employee, was struck by a car driven by a fellow
officer on Naval Station Norfolk, he filed a complaint
pursuant to the Federal Tort Claims Act (the
“FTCA”) against the Government and against the
officer solely in her capacity as an uninsured driver
under Virginia law. The district court dismissed the
complaint for lack of subject matter jurisdiction
under Feres v. United States, 340 U.S. 135 (1950).
Frankel appeals. For the reasons that follow, we
affirm the judgment of the district court.
I.
At 7:37 a.m. on March 31, 2015, Frankel was in
a designated crosswalk within Naval Station Norfolk
when he was hit by a car driven by Ensign Javen
Evonne Davis. At the time of the accident, Davis was
driving her personal vehicle to purchase a birthday
cake for another officer, as instructed by her
executive officer.
Although it is undisputed that Frankel was
heading to the Naval Station gym at the time he was
hit, the parties contest his status at the time of the

A3
accident, and specifically whether he was headed
there of his own volition or under orders. Frankel
asserts he was heading to the gym of his own
volition given that he was “not under any orders
associated with his employment with the Navy, he
was not on an official Navy assignment, and he was
not on duty.” J.A. 8. Further, according to Frankel,
physical training was not mandatory for his job.
Nonetheless, Frankel acknowledges that at the
time of the accident, he was on active duty status (as
opposed to furlough). In addition, his supervisor
averred that Frankel was required to report to the
Naval Station gym that day at 7:30 a.m. to begin
mandatory physical training for his job. Although
Frankel disputes these specific facts, he agrees that
his employment required him to a pass a semiannual physical fitness assessment and that he had
access to the Naval Station’s gym only by virtue of
his status as a member of the U.S. Navy. (Both the
gym and Naval Station Norfolk restrict access to
members of and those affiliated with the U.S. Armed
Forces.)
Frankel filed a state court complaint against
Davis asserting negligence in the operation of her
motor vehicle. The Government removed the case to
the district court and filed a notice of substitution
pursuant to the Federal Employees Liability Reform
and Tort Compensation Act of 1988 (the “Westfall
Act”), 28 U.S.C. § 2679, which provides immunity to
federal employees from common law tort claims
arising out of acts undertaken as part of their official
duties and substitutes the United States as the
defendant in such cases.1
Pursuant to § 2679(d)(1), the Government certified that
Davis was acting within the scope of her employment at the
time of the incident.
1

A4
After Frankel’s initial complaint was dismissed
for failure to exhaust administrative remedies,2
Frankel satisfied those prerequisites and then filed
the instant two-count complaint. The first count
asserts a negligence claim against the Government
under the FTCA, claiming that Davis, as a federal
employee, failed to exercise reasonable care in
operating her vehicle when she struck Frankel. The
second count asserts a claim under Virginia’s
uninsured motorist statute, Va. Code Ann. § 38.22206,3 which provides that a person injured in an
accident by an otherwise immune vehicle operator
may proceed against their own insurer. Specifically,
the complaint alleges that Frankel had purchased
uninsured motorist coverage from GEICO and that
he was entitled to compensation from GEICO under
this policy in the event that any named defendant
was deemed immune from liability. In turn, the
complaint named the Government and Davis as
nominal defendants as to this claim to satisfy § 38.22206’s requirements.
Following removal, the Government filed a motion to
dismiss for lack of subject matter jurisdiction under Federal
Rule of Civil Procedure 12(b)(1), arguing that the proper
defendant was the United States and that the lawsuit was
premature. Specifically, the Government asserted that under
the FTCA, Frankel could not bring a suit seeking damages for
personal injury stemming from the negligent or wrongful acts
of any federal employee acting within the scope of her
employment until: (1) Frankel had presented his claim to the
appropriate federal agency; and (2) the claim was denied by
that agency. The district court granted the motion, and the
Navy later denied Frankel’s notice of claim, thus satisfying
those prerequisites to suit. See 28 U.S.C. §§ 1346(b), 2401(b),
2671.
3 Although Va. Code Ann. § 38.2-2206 has been amended
since 2015, the language at issue in this case has not changed.
2

A5
The Government and Davis moved to dismiss for
lack of subject matter jurisdiction under Feres,
which held that the Government is immune from
FTCA claims arising from activities “incident to
service” of military personnel. 340 U.S. at 146.
The district court granted the motion.4 First, the
court considered whether Feres barred Frankel’s
claim against the Government. As an initial matter,
it observed that the Government had presented a
factual challenge to subject matter jurisdiction,
arguing that the jurisdictional facts—that is, those
that bore upon whether Frankel’s injuries arose
“incident to service,” such as the purpose of his gym
visit—alleged in the complaint were incorrect. The
court further observed that in ruling on a challenge
to jurisdictional facts that were not intertwined with
the underlying merits of the negligence claim, it was
not required to assume those facts, as alleged in the
complaint, were true. Rather, it could resolve the
jurisdictional facts by “weigh[ing] the evidence and
satisfy[ing] itself as to the existence of its power to
hear the case.” Williams v. United States, 50 F.3d
299, 304 (4th Cir. 1995) (internal quotation marks
omitted); see also United States ex rel. Vuyyuru v.
Jadhav, 555 F.3d 337, 348 (4th Cir. 2009) (“Unless
the jurisdictional facts are intertwined with the facts
central to the merits of the dispute, the district court
may then go beyond the allegations of the complaint
Before reaching the claims that are at issue on appeal, the
court concluded that Frankel’s other claims could not proceed
against Davis because the prior lawsuit had established that
Davis was acting within the scope of her federal employment
such that she had absolute immunity. And because, the court
concluded, this issue had already been resolved, Frankel was
precluded from relitigating it. Frankel does not appeal this
ruling.

4

A6
and resolve the jurisdictional facts in dispute by
considering evidence outside the pleadings, such as
affidavits.” (internal quotation marks omitted)).5
Here, the evidence showed that Frankel was on
duty, was on his way to a mandatory training, was
hit by a fellow servicemember, and was on a military
base with restricted access. As a result, the court
ruled that Frankel’s claim “falls squarely within the
heart of the Feres bar.” J.A. 201 (internal quotation
marks omitted). The court further determined that,
even if it did not resolve the jurisdictional facts and
instead accepted Frankel’s version of the facts as
true—that he was off duty and headed to the gym of
his own volition, and was hit by another off-duty
servicemember—it would still find the claim barred
by Feres because Frankel conceded he was on active
duty status rather than furlough status, his Navy
employment required him to pass a semi-annual
physical fitness assessment, and he was attempting
to patronize a gym that he had access to only by
virtue of his status as a Navy servicemember.
Second, the court concluded that Frankel’s
uninsured motorist claim was barred. As the court
observed, to proceed against an otherwise-immune
defendant, Virginia law first required entry of
judgment against that defendant. But because Feres
prevented Frankel from obtaining that judgment, his
uninsured motorist claim could not meet this
The district court further determined that even assuming the
facts relevant to the Feres bar were intertwined with the merits
of the negligence action, jurisdictional discovery would be
unnecessary “because the most relevant jurisdictional facts (the
location of the accident, [Frankel’s] duty status, the reason
[Frankel] was walking to the gym) [we]re all within [Frankel’s]
own knowledge.” J.A. 200.

5

A7
threshold requirement. Further, the court concluded,
because Virginia law did not permit Frankel to
pursue his claim directly against his insurance
company, it had to be dismissed.
Frankel appeals, arguing that the district court
erred in ruling that his claims were barred by Feres
and deciding this jurisdictional issue without further
discovery. He also asserts that the court misapplied
Feres to dismiss his uninsured motorist claim.
This Court has jurisdiction pursuant to 28
U.S.C. § 1291.
II.
We first consider whether the district court erred
in concluding Feres deprived it of subject matter
jurisdiction. The existence of subject matter
jurisdiction under Rule 12(b)(1) is a question of law
that this Court reviews de novo. Balfour Beatty
Infrastructure, Inc. v. Mayor & City Council of Balt.,
855 F.3d 247, 251 (4th Cir. 2017).
The FTCA provides a limited waiver of the
Government’s sovereign immunity, authorizing
lawsuits against the United States for certain tort
claims against federal employees acting within the
scope of their duties in circumstances “where the
United States, if a private person, would be liable to
the claimant in accordance with the law of the place
where the act or omission occurred.” 28 U.S.C. §
1346(b)(1). But in Feres, the Supreme Court held
that servicemembers cannot bring tort suits against
the Government for injuries they incur that “arise
out of or are in the course of activity incident to
service.” Feres, 340 U.S. at 146. Feres has since been
applied “consistently to bar all suits on behalf of

A8
service members against the Government based
upon service-related injuries.” United States v.
Johnson, 481 U.S. 681, 687–88 (1987).
Here, the district court concluded that Frankel’s
injuries arose “incident to service” because at the
time of the accident Frankel was on active duty
status and “his status as a Navy employee both gave
him access to the on-base gym and required him to
maintain a level of fitness.” Frankel v. United States,
358 F. Supp. 3d 537, 543 (E.D. Va. 2019). Therefore,
“his on-base injury occurring while he was traveling
to a military exercise facility was directly connected
to his military service, even if his workout was
intended to be recreational.” Id. (internal quotation
marks omitted).
A.
On review, we conclude that the district court
correctly determined that Feres barred Frankel’s
claim against the Government because the injury
was a service-related one. We have previously
concluded that “incident to service” is a broad term,
encompassing more than just “actual military
operations such as field maneuvers or small arms
instruction.” Hass ex rel. United States v. United
States, 518 F.2d 1138, 1141 (4th Cir. 1975). Rather,
it is wide-reaching enough to “encompass, at a
minimum, all injuries suffered by military personnel
that are even remotely related to the individual’s
status as a member of the military.” Stewart v.
United States, 90 F.3d 102, 105 (4th Cir. 1996).
In this vein, we have determined that injuries
that occur in the course of engaging in benefits or
recreation stemming from or related to service-

A9
member status arise “incident to service.” For
example, in Hass, this Court held that Feres barred
the suit of an active-duty serviceman who, while
temporarily on off-duty status, was injured while
riding a horse he had rented from a military base
Marine Corps stable. 518 F.2d at 1139. In reaching
this conclusion, we observed that the stable was
owned and operated by the Government; that a
Marine officer was in charge of it; and that
servicemembers could be disciplined for misconduct
while using it. Id. at 1141–42. Ultimately, because
“[r]ecreational activity provided by the military can
reinforce both morale and health and thus serve the
overall military purpose,” id. at 1141, “an activeduty serviceman, temporarily in off-duty status and
engaged in recreational activity on a military base,
cannot sue the United States for the alleged
negligence of another serviceman or civilian
employee of the military,” id. at 1142. Under the
same rationale, courts have determined that a
member of the military “is engaged in activity
incident to his military service when he is enjoying a
drink in a noncommissioned officers club, and when
he is riding a donkey during a ballgame sponsored
by the Special Services division of a naval air
station, and while swimming in a swimming pool at
an airbase.” Id. (internal citations omitted); see also
Mariano v. United States, 605 F.2d 721, 722–23 (4th
Cir. 1979) (concluding injury arose “incident to
service” when off-duty officer was struck by a glass
thrown by a fellow officer at a Naval Station club).
We have also concluded that a servicemember’s
injuries stemming from a car accident occur
“incident to service” when they implicate his or her
military status. As one example, in Stewart we

A10
concluded that a suit arising out of a servicemember’s automobile accident injuries was barred by
Feres when (1) he was on active-duty status at the
time of the accident, rather than on furlough or any
leave temporarily excusing him from his duties; (2)
the collision occurred on the grounds of a military
base; and (3) he “was engaged in activity directly
related to the performance of military obligations”
(specifically, “leaving one duty station to return to
his residence [to shower and change clothes] in
preparation for his next assignment”). 90 F.3d at
104–05; see also Warner v. United States, 720 F.2d
837, 839 (5th Cir. 1983) (per curiam) (observing that
where an off-duty servicemember was on base and
running a personal errand when a car accident
occurred, his “presence on the military base was by
virtue of his military status” and therefore militated
in favor of finding a Feres bar); Stansberry v.
Middendorf, 567 F.2d 617, 618 (4th Cir. 1978) (per
curiam) (applying the rationale of Hass to an offbase car accident involving a servicemember because
“the plaintiff was on active duty and not on furlough,
and sustained injury due to the negligence of others
in the armed forces”).
Here, even accepting Frankel’s version of the
facts as true, his claims are barred by Feres.6
Frankel’s central argument to the contrary arises from the
Feres bar’s underlying rationales. The Supreme Court has
emphasized three reasons for the bar: (1) “the ‘distinctively
federal’ relationship between the government and its soldiers[,
which] would be undermined by holding military personnel
accountable under the variations in state tort law according to
the situs of the alleged tort”; (2) “the comprehensive system of
statutory benefits granted to service members” intended by
Congress “to be the sole remedy for service related injuries”;
and (3) “the fear that frequent judicial inquiry into military

6

A11
According to his complaint, at the time of the
accident, Frankel was (1) an active duty officer
temporarily on off-duty status; (2) on a military base;
and (3) heading to the base’s gym in his free time.
Under our precedent, these facts—limited off-duty
status and presence on a military base by virtue of
his military status—easily establish a connection
between Frankel’s injuries and his status as a
member of the Navy. Further, as in Hass, Frankel
was taking advantage of a benefit—access to the
Navy gym—that he only enjoyed by virtue of his
status as a servicemember, as well as engaging in an
activity that arguably amounted to a “[r]ecreational
activity provided by the military [to] reinforce both
morale and health and thus serve the overall
decision making would have a deleterious impact on military
discipline and effectiveness.” Appelhans v. United States, 877
F.2d 309, 311 (4th Cir. 1989).
Frankel asserts that none of these rationales apply to his
situation such that Feres does not prohibit his suit. As an
initial matter, he asserts that the first two rationales are no
longer viable as a matter of law and policy—a proposition
which has been rejected by the Supreme Court. See id.
(Further, given that Frankel was on active-duty status and
engaging in a benefit tied to boosting servicemember “morale
and health,” Hass, 518 F.2d at 1141, we agree that the
“distinctively federal” rationale was implicated.) In turn,
although Frankel argues that while the military discipline
rationale was not implicated because there was no military
relationship between Frankel and Davis, we note that this
Court has previously considered and rejected a similar
argument. See Stewart, 90 F.3d at 106 (observing that this
rationale would apply if the plaintiff’s claims were of the type
that would involve an “assessment of military traffic, vehicle,
and other regulations” and potentially require “the service
members involved, any eyewitnesses, and military medical
personnel . . . to testify in court as to each other’s decisions and
actions” (internal quotation marks omitted)).

A12
military purpose.” 518 F.2d at 1141. In sum,
Frankel’s situation appears to be materially
indistinguishable from the one in Hass and other
cases warranting application of the Feres bar. See id.
at 1141–42. Therefore, we conclude the district court
did not err in determining that it lacked subject
matter jurisdiction under Feres.
B.
Next, Frankel argues that the district court
further erred by denying his requests for
jurisdictional discovery and thereby failing to
develop a necessary factual record. The denial of a
request for jurisdictional discovery is reviewed for an
abuse of discretion. Carefirst of Md., Inc. v. Carefirst
Pregnancy Ctrs., Inc., 334 F.3d 390, 396 (4th Cir.
2003). “[W]hen the jurisdictional facts are
inextricably intertwined with those central to the
merits, the court should resolve the relevant factual
disputes only after appropriate discovery, unless the
jurisdictional allegations are clearly immaterial or
wholly unsubstantial and frivolous.” Kerns v. United
States, 585 F.3d 187, 193 (4th Cir. 2009).
We conclude the district court’s decision not to
engage in further jurisdictional discovery did not
constitute an abuse of discretion. As discussed in the
prior section, even if the Court were to accept
Frankel’s version of the facts as true—that he was
off duty and going to the Navy gym on his own time,
that Davis was running a personal errand, and that
the Naval Base was accessed by members of the
public—we agree with the district court that his
claims would still be barred by Feres. At bottom,
Frankel, an active-duty officer, was on a military

A13
base heading to the base’s gym in his free time when
he was struck by Davis’s car. These facts clearly
establish a connection between Frankel’s injuries
and his status as a member of the Navy. In turn, the
applicability of the Feres bar—which concerned
whether the injury arose incident to Frankel’s
military service—did not require the district court to
determine any issue central to the merits of his tort
claim, which would presumably turn on the alleged
breach of Davis’s duty as a motorist to safely operate
her car.
III.
Finally, we turn to Frankel’s uninsured motorist
claim. Virginia’s uninsured motorist statute7
provides that a plaintiff injured in an automobile
accident in which the owner or operator of the
vehicle is deemed otherwise immune from suit8 may
proceed to recover damages against his or her
insurer:
[T]he immunity from liability for negligence
of the owner or operator of a motor vehicle
Virginia Code § 38.2-2206(A) generally requires
insurance companies to provide uninsured motorist coverage:
no insurance policy “relating to the ownership, maintenance, or
use of a motor vehicle shall be issued or delivered” in Virginia
“unless it contains an endorsement or provisions undertaking
to pay the insured all sums that he is legally entitled to recover
as damages from the owner or operator of an uninsured motor
vehicle[.]”
8 “[U]ninsured motor vehicle[s]” include ones for which
“the owner or operator of the motor vehicle is immune from
liability for negligence under the laws of the Commonwealth or
the United States.” Va. Code Ann. § 38.2-2206(B).
7

A14
shall not be a bar to the insured obtaining a
judgment enforceable against the insurer for
the negligence of the immune owner or
operator, and shall not be a defense available
to the insurer to the action brought by the
insured, which shall proceed against the
named defendant although any judgment
obtained against an immune defendant shall
be entered in the name of “Immune
Defendant[.]”
Va. Code Ann. § 38.2-2206(F) (emphasis added). In
turn, Virginia courts have interpreted this statute to
require that a plaintiff seeking recovery under his
uninsured motorist policy against an otherwise
immune defendant must first procure a judgment
against that immune defendant. Only after
obtaining such a judgment may the plaintiff then
enforce it against his insurer. As the Virginia
Supreme Court has elaborated, “Virginia precedent
indicates that the duty owed by [an uninsured
motorist] carrier to its insured [under § 38.22206(A)] is to pay its insured the damages he or she
is ‘legally entitled to recover’[.]” Manu v. GEICO Cas.
Co., 798 S.E.2d 598, 603 (Va. 2017) (emphasis
added). “[T]he phrase ‘legally entitled to recover’
imposes as a condition precedent to [an uninsured
motor] carrier’s obligation to pay its insured[] that
the insured obtain a judgment against the uninsured
tortfeasor whose actions come within the purview of
the [uninsured motorist] policy.” Id. at 605.9
Indeed, courts interpreting § 38.2-2206 have consistently
found that judgment is the event which determines legal
entitlement to recovery. E.g., Nationwide Mut. Ins. Co. v.
Hylton, 530 S.E.2d 421, 423 (Va. 2000); United Servs. Auto.
9

A15
The district court thus concluded that to have
proceeded with an uninsured motorist claim against
Davis or the Government, Frankel would have first
been required to obtain a judgment. But because
Feres would bar such a lawsuit (to say nothing of a
judgment) against the United States, and the
Westfall Act would similarly bar any such lawsuit
against Davis, Frankel could not proceed with his
uninsured motorist claim. On appeal, Frankel
argues the district court erred in reaching this
conclusion, contending that: (1) by naming Davis as
the nominal defendant, Frankel was only seeking to
fulfill § 38.2-2206(F)’s requirements, not hold her or
the Government liable; (2) nothing in § 38.22206(F)’s language requires that the plaintiff first
obtain a judgment against the named defendant; and
(3) to interpret the statute in this manner would
deny Frankel the contractual benefit of an insurance
policy that he purchased for his protection.
We disagree. Feres provides that the United
States is immune not merely from liability but also

Ass’n v. Nationwide Mut. Ins. Co., 241 S.E.2d 784, 787 (Va.
1978); Midwest Mut. Ins. Co. v. Aetna Cas. & Sur. Co., 223
S.E.2d 901, 904 (Va. 1976); see also O'Brien v. Gov’t Emps. Ins.
Co., 372 F.2d 335, 341 (3d Cir. 1967) (interpreting Virginia’s
predecessor statute to § 38.2-2206); Satterfield v. Gov’t Emps.
Ins. Co., 287 F. Supp. 3d 1285, 1295 & n.16 (W.D. Okla. 2018)
(interpreting § 38.2-2206); Ryan v. 21st Century Centennial Ins.
Co., No. TDC-15-3052, 2016 WL 3647612, at *5–6 (D. Md. June
30, 2016) (same); Boggs-Wilkerson v. Anderson, No. 2:10cv518,
2011 WL 6934598, at *2 (E.D. Va. Nov. 17, 2011)(“In uninsured
motorist cases, Virginia is among a small minority of states
that requires the plaintiff first obtain judgment against the
alleged tortfeasor before bringing direct action against the
insurer.”), report and recommendation adopted by 2011 WL
6934596, at *1 (E.D. Va. Dec. 30, 2011).

A16
from suit.10 See Al Shimari v. CACI Int’l, Inc., 679
F.3d 205, 218 (4th Cir. 2012) (“[I]mmunity has
consistently been administered as a protection
against the burden of litigation altogether.”). The
Westfall Act provides the same as to Davis. Osborn
v. Haley, 549 U.S. 225, 238 (2007) (observing that 28
U.S.C. § 2679 is “designed to immunize covered
federal employees not simply from liability, but from
suit”). Thus, any argument that the Government or
Davis could serve purely as nominal defendants is
unavailing. Further, the plain language of § 38.22206(F) provides that the suit “shall proceed against
the named defendant.” But given that Feres bars
Frankel’s suit against the Government— and the
Westfall Act bars any suit against Davis—under the
FTCA, there is no named defendant against whom
judgment can be entered for purposes of § 38.22206(F). Therefore, Frankel’s uninsured motorist
claim cannot clear this initial statutory hurdle.
Finally, as the district court observed, although such
a result “may seem inequitable,” “unless and until
the Virginia legislature modifies the statutory
procedure set forth in Va. Code § 38.2-2206(F) to
allow a [p]laintiff to proceed directly against an
insurer” in circumstances such as this one, “such
‘perceived unfairness’ cannot be avoided.” 358 F.
Supp. 3d at 544. We therefore agree that Frankel’s
claim cannot proceed.

And under the federal Constitution’s Supremacy Clause,
Virginia law cannot provide otherwise. See U.S. Const. art. VI,
cl. 2 (“This Constitution, and the Laws of the United States . . .
shall be the supreme Law of the Land[.]”).
10

A17
IV.
For the foregoing reasons, the judgment of the
district court is affirmed. We dispense with oral
argument because the facts and legal contentions are
adequately presented in the materials before this
court and argument would not aid the decisional
process.
AFFIRMED

A18
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF VIRGINIA
Norfolk Division
Civil No. 2:18cv107
JOSHUA E. FRANKEL,
Plaintiff,
V.
UNITED STATES OF AMERICA,
and
JAVEN EVONNE DAVIS, solely in
her capacity of an uninsured
driver pursuant to Virginia
Code § 38•2-2206, as amended.
Defendants.
OPINION AND ORDER
This matter is before the Court on a motion to
dismiss for lack of subject matter jurisdiction, filed
by the United States of America (“United States” or
“the Government”), and Javen Evonne Davis
(“Davis,” and collectively with the United States,
“Defendants”), pursuant to Federal Rule of Civil
Procedure 12(b)(1). ECF No. 6. Plaintiff opposes
dismissal, asserting that this action was properly
filed in this Court.

A19
I. FACTUAL AND PROCEDURAL HISTORY
A. Factual Background
On March 31, 2015, at approximately 7:37 a.m.,
Plaintiff, an employee of the United States Navy,
was injured by a vehicle negligently operated by
Davis, who is also an employee of the Navy. Compl.
¶¶ 17-18, ECF No. 1. Plaintiff was struck by Davis’
vehicle while he was walking in a crosswalk within
Naval Station Norfolk, a military base in Norfolk,
Virginia. Id. Plaintiff asserts that he was “on his way
to the gym on his own volition” when he was hit, and
that he was “not under any orders associated with
his employment with the Navy,” was not “on an
official Navy assignment,” and “was not on duty.” Id.
¶ 19.
In addition to, and/or in contradiction to, such
facts, Defendants support their dismissal motion by
providing a sworn affidavit from Suly Diaz,
Plaintiff’s Navy Supervisor.1 ECF No. 7-1, ¶ 2. Diaz
asserts, under oath, that on the morning of the
accident. Plaintiff was required to report to the onbase sports center to participate in mandatory
physical training scheduled to begin at 7:30 a.m. Id.
¶ 5. Diaz further indicates that such training was
“the beginning of the workday” for Plaintiff. Id.
Although Plaintiff’s responsive brief denies that he
As discussed below in Part II of this Opinion, when ruling on
a motion challenging the accuracy of jurisdictional allegations
that are not intertwined with the merits, the Court “may
consider exhibits outside the pleadings” and “is free to weigh
the evidence and satisfy itself as to the existence of its power to
hear the case.” Williams v. United States, 50 F.3d 299, 304 (4th
Cir. 1995) (citation omitted).
1

A20
was on his way to mandatory physical training.
Plaintiff provides no affidavit or other evidence to
support such contrary factual statement made in his
brief. ECF No. 11, at 4; see Kulhawik v. Holder, 571
F.3d 296, 298 (2d Cir. 2009) (“An attorney’s unsworn
statements in a brief are not evidence”).
In addition to the disagreement over Plaintiff’s
reason for going to the on-base gym, the parties’
briefs dispute the degree to which Naval Station
Norfolk is open to the public. Defendants advance
two additional sworn affidavits seeking to
demonstrate that: (1) access to the base was
restricted to those with an employment, familial, or
other connection to the military, ECF No. 7-2; and
(2) the gym that Plaintiff was walking to on the day
of the accident is located on the base, is operated for
the benefit of servicemembers, and may only be
patronized by military personnel and other
authorized individuals, ECF No. 7-3. Plaintiff does
not counter such affidavits with any evidence, but
again advances unsworn assertions referencing the
vast number of “civilians” that have daily access to
the base. ECF No. 11, at 4.
B. Procedural History
Plaintiff unsuccessfully pursued an
administrative claim with the Navy for his injuries
resulting from the accident, and he thereafter filed
the instant action in this Court. Compl. ¶ 15-16. In
an apparent effort to recover damages through
Plaintiff’s “uninsured motorist” auto insurance

A21
coverage, Plaintiff’s lawsuit names both the United
States and Davis as defendants.2 ECF No. 1.
Defendants subsequently moved to dismiss this
case on jurisdictional grounds, claiming that; (1) the
suit cannot proceed against Davis based on this
Court’s ruling in a prior federal case filed by
Plaintiff;3 and (2) that the case cannot proceed
against the United States due to the doctrine of
sovereign immunity. ECF No. 7. Defendants further
argue that an uninsured motorist claim cannot
proceed because Va. Code § 38.2-2206(F) requires
that a Plaintiff first secure a judgment against the
owner or operator of the uninsured vehicle, and here.
Plaintiff cannot obtain a judgment against either
Defendant. ECF No. 7.

As argued in Defendants’ motion to dismiss, the United
States asserts that it is immune from suit, which is why
Plaintiff seeks to recover under his own auto insurance policy.
Plaintiff is insured through Government Employees Insurance
Company (“GEICO”), and Plaintiff served GEICO with a copy
of the complaint in this case. GEICO thereafter filed, as an
“interested party,” a memorandum adopting the arguments
advanced in Defendants’ brief seeking dismissal. ECF No. 10.
3 In late 2016, Plaintiff filed a lawsuit in Norfolk Circuit
Court against Davis, and such case was removed to this Court
by the United States pursuant to a “Notice of Substitution” and
“Certification” asserting that the United States was the only
proper defendant. 2:16cv674, ECF No. 1-2. On June 26, 2017,
after receiving evidence, another Judge of this Court issued an
Order concluding that Davis was acting “within the scope of her
employment” at the time of the accident and that the United
States was therefore the proper defendant. 2:16cv674, ECF No.
18, at 8. Based on such ruling. Plaintiff conceded that his
federal case should be dismissed, without prejudice, due to his
failure to exhaust administrative remedies available through
the Department of the Navy. Id. at 1. Now that Plaintiff has
exhausted such remedies, he has returned to this Court.
2

A22
II. STANDARD OF REVIEW
The party asserting subject matter jurisdiction
bears the burden of proving that such jurisdiction
exists. Adams v. Bain, 697 F.2d 1213, 1219 (4th Cir.
1982). When an individual sues the United States for
damages, he or she also bears the burden to
demonstrate that the Government unequivocally
waived its sovereign immunity. Williams v. United
States, 50 F.3d 299, 304 (4th Cir. 1995); see
Anderson v. United States, 669 F.3d 161, 164 (4th
Cir. 2011) (‘‘Where the United States has not waived
its sovereign immunity, a plaintiff’s claim against
the United States should be dismissed for lack of
subject matter jurisdiction under Federal Rule of
Civil Procedure 12(b)(1).”).
Subject matter jurisdiction may be challenged
facially or factually. Adams, 697 F.2d at 1219. A
facial challenge contends that a “complaint simply
fails to allege facts upon which subject matter
jurisdiction can be based.” Id. In ruling on such a
challenge, the court assumes that all facts alleged in
the complaint are true. Id. In contrast, a factual
challenge to subject matter jurisdiction relies on the
assertion that “the jurisdictional allegations of the
complaint [a]re not true.” Id. In ruling on a factual
challenge that is not intertwined with the merits of
the underlying action, the court is “free to weigh the
evidence and satisfy itself as to the existence of its
power to hear the case.” Williams, 50 F.3d at 304
(quoting Mortensen v. First Fed. Sav. and Loan
Ass’n, 549 F.2d 884, 891 (3d Cir. 1977)); see U.S. ex
rel. Vuyyuru v. Jadhav, 555 F.3d 337, 348 (4th Cir.
2009) (“Unless the jurisdictional facts are
intertwined with the facts central to the merits of

A23
the dispute, the district court may . . . resolve the
jurisdictional facts in dispute by considering
evidence outside the pleadings, such as affidavits.”).
When evaluating the jurisdictional evidence, the
court may consider ‘‘evidence by affidavit,
depositions or live testimony.” Adams, 697 F.2d at
1219; see Al Shimari v. CACI Premier Tech., Inc.,
840 F.3d 147, 154 (4th Cir. 2016) (“The district court
is authorized to resolve factual disputes in
evaluating its subject matter jurisdiction.”).
III. DISCUSSION
Here, Plaintiff seeks a judgment against the
United States as the party substituted for the driver
(Davis) that struck him with her car. Compl. ¶ 2.
Alternatively, to the extent that the Government is
immune from Plaintiff’s suit. Plaintiff names Davis
as a defendant in an effort to obtain a ruling by this
Court that would allow Plaintiff to proceed against
GEICO under Plaintiff’s own uninsured motorist
policy. Compl. ¶¶ 3-4. However, as discussed below.
Plaintiff is barred from proceeding against either
party.
A. Plaintiff Cannot Proceed Against Davis
First, Plaintiff cannot maintain a claim directly
against Davis because another judge of this Court, in
dismissing Plaintiff’s prior suit arising out of the
same incident, held that Davis was acting within the
scope of her federal employment at the time of the
accident. Case No. 2:16cv674, ECF No. 18; cf. Compl.
¶ 2. Although the dismissal of Plaintiff’s earlier
action was without prejudice to Plaintiff’s right to

A24
refile the instant case. Plaintiff may not relitigate
the scope of employment question because the
doctrine of ‘‘issue preclusion” prevents further
litigation of this previously decided issue. See
Wright & Miller 18 Federal Practice & Procedure
Jurisdiction § 4418 (3d ed.) (explaining that when “a
first action is decided on grounds that do not
preclude a second action” asserting the same claim,
the plaintiff retains the ability to file such second
action, but “direct estoppel” precludes “reargument
of the grounds decided in the first action”); Capitol
Envtl. Servs., Inc. v. N. River Ins. Co., 778 F. Supp.
2d 623, 633 (E.D. Va. 2011), aff’d, 484 F. App’x 770
(4th Cir. 2012) (“[E]ven a judgment not on the merits
will generally have preclusive effect at least as to the
same issue for which dismissal was ordered.”).
Consequently, here, the United States must be
substituted as the proper defendant, and Davis has
absolute immunity “not simply from liability, but
from suit.” Boggs-Wilkerson v. Anderson, No.
2:10cv518, 2011 WL 6934598, at *2 (E.D. Va. Nov.
17, 2011) adopted by 2011 WL 6934596 (E.D. Va.
Dec. 30, 2011) (quoting Osborn v. Haley, 549 U.S.
225, 238 (2007)); see Maron v. United States, 126
F.3d 317, 321-22 (4th Cir. 1997) (‘‘[E]ven in cases
where the United States has not waived its
immunity, the United States must still be
substituted and the individual defendant still
remains immune from suit if the tort occurred
within the scope of employment”). Because Davis is
immune from suit, an action against her cannot
proceed.

A25
B. Plaintiff Cannot Proceed Against the
United States
Having determined that the United States is the
only proper defendant, the Court next concludes that
Plaintiff’s suit cannot proceed against the United
States based on the doctrine of sovereign immunity.
Although the United States has consented to a
waiver of its immunity through the Federal Tort
Claims Act (“FTCA”), United States v. S.A. Empresa
de Viacao Aerea Rio Grandense (Varig Airlines), 467
U.S. 797, 807-08 (1984), the Supreme Court has
expressly held that the FTCA does not waive the
Government’s immunity ‘‘for injuries to servicemen
where the injuries arise out of or are in the course of
activity incident to service.” Feres v. United States
340 U.S. 135, 146 (1950).
The Fourth Circuit has consistently held that the
Feres doctrine is not “restricted to actual military
operations such as field maneuvers or small arms
instruction.” Hass v. United States, 518 F.2d 1138,
1141 (4th Cir. 1975). Instead, the applicability of the
doctrine considers, among other factors, “the
plaintiff’s duty status and the location of the tort.”
Kessler v. United States, 514 F. Supp. 1320, 1322
(D.S.C. 1981). The Fourth Circuit has thus broadly
recognized that the Feres doctrine encompasses “all
injuries suffered by military personnel that are even
remotely related to the individual’s status as a
member of the military.” Stewart v. United States,
90 F.3d 102, 105 (4th Cir. 1996) (quotation marks
and citation omitted); see Aikens v. Ingram, 811 F.3d
643, 651 (4th Cir. 2016).
In Stewart, the Fourth Circuit held that the
Feres doctrine barred a suit against the United

A26
States arising from an on-base car accident that
occurred while a servicemember was driving back to
his on-base residence to shower and prepare for his
next military responsibility. Id. at 104. Even though
the injury did not occur on route to a scheduled
military activity, the court held that such case “lies
at the heart of the Feres bar.” Id. Similarly, the
Fourth Circuit has held that an off-duty serviceman
injured while riding a military-provided horse could
not sue the United States because recreational
activity benefits the military by boasting morale and
health. Hass, 518 F.2d at 1141-42; see Mariano v.
United States, 444 F. Supp. 316, 320 (E.D. Va. 1977),
aff’d, 605 F.2d 721 (4th Cir. 1979) (rejecting the
plaintiff’s contention that ‘‘for an injury to be
incident to service the serviceman must have been
receiving direct benefits from the military at the
time of the injuries”); see also Chambers v. United
States, 357 F.2d 224, 229 (8th Cir. 1966) (noting that
even if the plaintiff “had a furlough order in his
pocket or might have been engaged in swimming for
recreation,” his claim was barred by Feres because
his “use of the pool, which was a part of the base,
was related to and dependent upon his military
service; otherwise, he would not have been
privileged to use it”).
Here, because the jurisdictional dispute involves
facts wholly separate from the facts Plaintiff must
establish in support of his FTCA negligence claim,
the jurisdictional facts are not “intertwined” with the
merits, thus allowing this Court to “resolve the
jurisdictional facts.” U.S. ex rel. Vuyyuru, 555 F.3d
at 348.4 As noted above. Rule 12(b)(1) permits a
Alternatively, assuming, arguendo, that the facts
relevant to the Feres dispute were “intertwined” with the
4

A27
defendant to mount a factual challenge to
jurisdictional allegations through the presentation of
evidence, and Defendants have done precisely that
in this case. Plaintiff, however, offers no evidence in
response, instead offering only unsworn facts
advanced in a brief in opposition.
Accepting as true Defendant’s affidavits that
have not been refuted through conflicting evidence,
Plaintiff was both ‘‘on duty” and on base at the time
of the accident, as he was hit by a fellow
servicemember on his way to mandatory military
fitness training at the on-base gym. ECF No. 7-1, ¶
5. The general public was not only restricted from
accessing the base, but also the gym, absent
permission to do so. ECF Nos. 7-2, 7-3. On such
facts, it cannot reasonably be disputed that this case
falls squarely within the “heart of the Feres bar.”
Stewart, 90 F.3d at 104.
Alternatively, the Court finds that even if it does
not “resolve” jurisdictional facts, but instead accepts
as true Plaintiff’s unsubstantiated factual
allegations, Plaintiff’s claims are still barred by
Feres. Feres bars Plaintiff’s claim for injuries
sustained while traveling on base toward an on-base
fitness facility to participate in “recreational”
merits of Plaintiff’s case, the Court would typically not resolve
such an issue without first affording the parties the
opportunity to perform jurisdictional discovery. Kerns v.
United States, 585 F.3d 187, 193 (4th Cir. 2009) . However, the
instant record, to include Plaintiff’s admissions and arguments
in his brief, illustrates the absence of a need for discovery prior
to the resolution of the Feres dispute because the most relevant
jurisdictional facts (the location of the accident, Plaintiff’s duty
status, the reason Plaintiff was walking to the gym) are all
within Plaintiff’s own knowledge. See Rich V. United States,
811 F.3d 140, 146 (4th Cir. 2015).

A28
exercise utilizing a military fitness facility even if, as
Plaintiff asserts, he was “not on duty” and “scores” of
civilians access Norfolk Naval Base on a daily basis.5
Notably, Plaintiff does not contest Defendants’
assertion that Plaintiff was on “active duty” status
with the military at the time of the incident (as
contrasted with a “furlough status”)6 even assuming
that he was “off duty” at the moment the accident
occurred because his workday had not yet begun. See
Aikens, 811 F.3d at 651 (discussing the breadth of
the Feres doctrine and noting that “a plaintiff need
not be on duty” for it to apply). Plaintiff also fails to
call into question the fact that: (1) his employment
with the Navy required him to pass a semi-annual
“Physical Fitness Assessment”; or (2) that he had
access to the on-base gym as a result of his status as
a member of the Navy. As explained by the Fourth
Circuit, “an active-duty serviceman temporarily in
Plaintiff’s assertion that “scores of civilians . . . are
permitted entry [to the base] on a routine basis,” ECF No. 11,
at 4, fails to effectively undercut Defendants’ factual contention
that access to the base is restricted from the general public
because the sheer number of civilians that have authorization
to access such a large military facility says nothing about
whether authorization to be present is required.
6 The Government states in its brief that Plaintiff was on
“active duty” and cites the sworn assertion from Plaintiff’s
Navy supervisor that Plaintiff “was employed by the U.S. Navy,
held the rank of Petty Officer Second Class, and was . . .
assigned to the [Electronic Warfare Database] Division.” ECF
No. 7-1, ¶ 2. To the extent such evidentiary statement does not
specifically use the term “active duty,” the Court notes that
Plaintiff has never contested such fact in any filing before this
Court despite the fact that he bears the burden of
demonstrating that the Government unequivocally waived its
sovereign immunity. Adams, 697 at 1219. Therefore, the weight
of the evidence supports the conclusion that Plaintiff was on
active duty status at the time of the accident.
5

A29
off-duty status and engaged in recreational activity
on a military base, cannot sue the United States for
the alleged negligence of another serviceman or
civilian employee of the military.” Hass, 518 F.2d at
1142; see Kessler, 514 F. Supp. at 1322-23. While
Plaintiff’s version of events presents a closer
question, because his status as a Navy employee
both gave him access to the on-base gym and
required him to maintain a level of fitness, his onbase injury occurring while he was traveling to a
military exercise facility was directly connected to
his military service, even if his workout was
intended to be ‘‘recreational.” Hass, 518 F.2d at
1141-42; Stewart, 90 F.3d at 105. Accordingly, the
Feres doctrine bars Plaintiff’s suit against the
United States, and Plaintiff’s claims must be
dismissed for lack of subject matter jurisdiction.”7
C. Plaintiff’s Uninsured Motorist Claim
Cannot Proceed
The Court separately finds that Plaintiff’s
uninsured motorist claim alleged in Count Two of
the complaint fails because an uninsured motorist
claim under Virginia law cannot proceed until the
plaintiff first secures entry of judgment against a
To the extent Plaintiff seeks to focus the Court’s analysis on
precedent that discusses the several identified “rationales”
behind the Feres doctrine, this Court finds that such analysis
leads to the same result in this case, as best illustrated by the
Fourth Circuit’s analysis in Stewart, a case involving an onbase car accident. Cf. Aikens, 811 F.3d at 651 (“[T]he situs of
the injury is not as important as ‘whether the suit requires the
civilian court to second-guess military decisions . . . and
whether the suit might impair essential military discipline.’”
(quoting United States v. Shearer, 473 U.S. 52, 57 (1985))).
7

A30
tortfeasor. Boggs-WiIkerson, 2011 WL 6934598, at
*2; Mutual Ins. Co. v. Hylton, 260 Va. 56, 61, 530
S.E.2d 421, 423 (2000). Pursuant to Virginia statute,
even in cases involving immune defendants, a
“plaintiff must obtain a judgment against the named
defendant” before the plaintiff is authorized to
pursue relief from his or her own insurer. BoggsWiIkerson, 2011 WL 6934 598, at *2 (citing Va. Code
§ 38.2-2206 (F)); see Erie Ins. Co. v. McKinley
Chiropractic Ctr., P.O., 294 Va. 138, 139, 803 S.E.2d
741, 742 (2017) (‘‘An injured party possesses no right
to recover tort damages from the tortfeasor’s insurer
until reducing to a judgment his claim against the
tortfeasor”) (citations omitted).
In Mutual Insurance v. Hylton, the Supreme
Court of Virginia held that even though Virginia
Code § 38.2-2206(F) gives an automobile insurer “the
right to file pleadings” and take other legal action in
its own name or in the name of the uninsured
motorist, the fact that the insurer has such rights
does not allow an injured plaintiff to obtain a
judgment directly against the insurer in a tort
proceeding. Hylton, 260 Va. at 61, 530 S.E.2d at 423.
Although Virginia’s requirement that a plaintiff first
obtain a judgment against the tortfeasor leads to an
obvious remedy gap if the tortfeasor is immune from
suit, Virginia statute endeavors to eliminate such
gap by creating a statutory process allowing an
injured party to obtain a judgment against an
otherwise immune defendant. Va. Code § 38.22206(3), (F). However, while the Virginia legislature
has the power to modify the immunity enjoyed by
state actors that are named in a lawsuit in order to
eliminate such remedy “gap,” the Supremacy Clause
of the United States Constitution prevents such

A31
state legislative body from modifying the scope of the
federal Government’s sovereign immunity, to include
the United States’ immunity from suit. See BoggsWilkerson, 2011 WL 6934598, at *5-*7 (analyzing
the Virginia statute, in detail, as well as its interplay
with the Supremacy Clause of the United States
Constitution); see also Johnson v. Puckett, 80 Va.
Cir. 310, 313 (2010) (finding that the City of
Roanoke, Virginia, although immune, “should
remain a party in this action for the sole purpose of
[the plaintiff] obtaining a judgment that can be
enforced against the insurers).
Here, because the United States properly
substituted itself for Davis, federal law precludes
Plaintiff’s suit from proceeding against Davis, either
directly, or as a “nominal defendant.” Id. Similarly,
the Feres doctrine precludes Plaintiff’s suit from
proceeding against the United States, either directly,
or as a “nominal defendant.” Id. at *7; see also
United States v. Bormes, 568 U.S. 6, 9 (2012)).
Because Plaintiff has not named a valid defendant
against whom a judgment may be entered. Plaintiff’s
uninsured motorist claim cannot proceed.8
Having made such finding, this Court notes its
agreement with the observation in Boggs-Wilkerson
that such result ‘‘may seem inequitable.” BoggsWiIkerson, 2011 WL 6934598, at *5. However,
unless and until the Virginia legislature modifies the
The Court has fully considered the discussion in BoggsWilkerson regarding the apparent ambiguity in the interplay
between subsections (B) and (F) of Va. Code § 38.2-2206 and
agrees with the resolution of such ambiguity in BoggsWilkerson in light of Johnson, Hylton and other longstanding
Virginia precedent establishing that entry of judgment against
a tortfeasor is a necessary prerequisite to securing a judgment
against an insurer.
8

A32
statutory procedure set forth in Va. Code § 38.22206(F) to allow a Plaintiff to proceed directly
against an insurer in the circumstances now before
this Court, such “perceived unfairness” cannot be
avoided. Id. Stated differently, this Court both lacks
the authority to rewrite a Virginia statute and lacks
the authority to elevate a sound equitable argument
over the United States’ authorized invocation of its
sovereign immunity from suit.
IV. CONCLUSION
For the reasons set forth herein, the Court
GRANTS Defendants’ motion to dismiss the
complaint for lack of subject matter jurisdiction.
ECF No. 6. The Clerk is REQUESTED to send a
copy of this Opinion and Order to all counsel of
record.
IT IS SO ORDERED.
/s/ Mark S. Davis
CHIEF UNITED STATES DISTRICT JUDGE
Norfolk, Virginia
January 7, 2019

